Case: 19-1889

Document: 00117654509

Page: 1

Date Filed: 10/09/2020

Entry ID: 6373783

United States Court of Appeals
For the First Circuit
_____________________
No. 19-1889
UNITED STATES,
Appellee,
v.
MISAEL HERRERA-FUENTES,
Defendant - Appellant.
__________________
Before
Torruella, Lynch and Thompson,
Circuit Judges.
__________________
JUDGMENT
Entered: October 9, 2020
We have reviewed the record and the parties' submissions. We allow the government's
motion for summary disposition, and we affirm. The argument that the appellant, Misael HerreraFuentes ("Herrera"), preserved in his conditional plea agreement is squarely foreclosed by this
court's recent decision in United States v. Mendoza, 963 F.3d 158, 161-63 (1st Cir. 2020). His
collateral challenge to the underlying removal order based on an alleged failure to comply with the
ten-day notice requirement in 8 U.S.C. § 1229(b) fails under plain error review. See United States
v. Mercado, 777 F.3d 532, 536 (1st Cir. 2015). The hearing in Herrera's underlying removal
proceeding was held more than ten days after service of the Notice to Appear, as required by the
plain language of subsection 1229(b). He argues that the ten-day period in question should be
measured from the date on which he received notice of the actual date of the hearing, and that in
this case, he only received notice of the hearing date two days before the hearing. He does not,
however, cite to any authority that squarely interprets subsection 1229(b) in this way, so we can
find no plain error in the district court's failure to dismiss the indictment on this basis.
Affirmed. See 1st Cir. R. 27.0(c).

Appendix A
1

Case: 19-1889

Document: 00117654509

Page: 2

Date Filed: 10/09/2020

By the Court:
Maria R. Hamilton, Clerk

cc:
Christine DeMaso
Dorothy E. Graham
Seth R. Aframe
Helen White Fitzgibbon

Appendix A
2

Entry ID: 6373783

United States v. Herrera-Fuentes, Not Reported in Fed. Supp. (2019)
2019 DNH 125

2019 WL 3718026
NOT FOR PUBLICATION
United States District Court, D. New Hampshire.
UNITED STATES
v.
Misael HERRERA-FUENTES
Case No. 18-cr-126-PB
|
Signed 08/07/2019
Attorneys and Law Firms
Alfred J.T. Rubega, US Attorney's Office, Concord, NH, for United States.
Dorothy E. Graham, Federal Defender's Office, Concord, NH, for Misael Herrera-Fuentes.

ORDER
Paul J. Barbadoro, United States District Judge
*1 The United States charged Misael Herrera-Fuentes with one count of violating
8 U.S.C. § 1326(a), the illegal reentry
statute. Herrera-Fuentes responded with supplemental motions to dismiss that collaterally attack the immigration court order
the government relies on to prove that he had previously been removed from the United States. Because I conclude that HerreraFuentes cannot collaterally attack the immigration court order, I deny his motions.

I. FACTUAL BACKGROUND
Herrera-Fuentes, a Honduran national, has been removed twice before. In September 2007, the Department of Homeland
Security (“DHS”) found him living in Manchester, New Hampshire, and removed him to Honduras. In October 2012, he was
detained after unlawfully entering the United States near Eagle Pass, Texas. His removal order was reinstated and he was again
removed.
The details surrounding Herrera-Fuentes’ first removal are central to this case. On September 13, 2007, the Patrol Agent-inCharge served Herrera-Fuentes with a Notice to Appear before an immigration judge. See Doc. No. 11-1. That Notice instructed
him to appear at the Ribicoff Federal Building in Hartford, Connecticut “on a date to be set at a time to be set.” Doc. No.
11-1. On September 24, Herrera-Fuentes, who was then in detention, received a “Notice of Hearing in Removal Proceedings”
specifying that his removal hearing would be held “on Sep 26, 2007 at 9:00 A.M.” Doc. No. 11-2. Herrera-Fuentes appeared at
the hearing via video teleconference. Following the hearing, the Executive Office for Immigration Review ordered his removal
(“2007 Removal Order”). See Doc. No. 11-3. He did not challenge the order and he was later removed.
In August 2018, Herrera-Fuentes was indicted in this court for illegal reentry. See Doc. No. 1. He responded with a motion
to dismiss claiming that the 2007 Removal Order was improper because his Notice to Appear did not specify the date and
time of his removal hearing. I denied his motion from the bench because Herrera-Fuentes was served with a Notice of Hearing
that gave him advance notice of when the hearing would be held. On January 24, 2019, he entered a conditional guilty plea

Appendix B
© 2020 Thomson Reuters. No claim to original U.S. Government Works.
1

1

United States v. Herrera-Fuentes, Not Reported in Fed. Supp. (2019)
2019 DNH 125

preserving his right to appeal from the denial of his motion to dismiss. On March 29 and May 24, 2019, he filed supplemental
motions to dismiss providing new factual and legal support for his original motion. See Doc. Nos. 32, 38. Those motions are
before the court.

II. LEGAL BACKGROUND
An illegal reentry charge requires proof that the defendant “(1) is an alien, (2) was previously deported, and (3) thereafter
entered, or attempted to enter, the United States without permission.”
United States v. Contreras Palacios, 492 F.3d 39, 42
(1st Cir. 2007). Herrera-Fuentes targets the second element of the crime by collaterally attacking the 2007 Removal Order. As
he sees it, the immigration court lacked jurisdiction over him because his original Notice to Appear did not specify the date and
time of his removal hearing as is required by 8 U.S.C. § 1229(a). Accordingly, he contends that the 2007 Removal Order was
unlawful and cannot be used to satisfy the second element of an illegal reentry prosecution. This apparently simple argument
is a straight thread pulled from an entangled skein. Before I address it, I describe the law on which it is based.
A. Collateral Attacks on Orders
United States v. Mendoza-Lopez,
*2 The law has not always permitted collateral attacks on removal orders. But in
481 U.S. 828 (1987), the Supreme Court held that the due process clause entitles an alien to collaterally challenge a removal
proceeding during an illegal reentry prosecution if “defects in [the] administrative proceedings foreclose[d] judicial review of
that proceeding.” See

id. at 838. Because the defendants in Mendoza-Lopez had been denied their right to appeal their

removal orders, the Court concluded that the defendants’ motions to dismiss must be granted. See

id. at 842.

Congress responded to the Mendoza-Lopez decision some years later. In the Antiterrorism and Effective Death Penalty Act of
1996, PL 104–132 (Apr. 24, 1996), 110 Stat. 1214, Congress amended the Immigration and Nationality Act (“INA”) by adding
a new subsection to

§ 1326:

(d) In a criminal proceeding under this section, an alien may not challenge the validity of the deportation order described in
subsection (a)(1) or subsection (b) unless the alien demonstrates that—
(1) the alien exhausted any administrative remedies that may have been available to seek relief against the order;
(2) the deportation proceedings at which the order was issued improperly deprived the alien of the opportunity for judicial
review; and
(3) the entry of the order was fundamentally unfair.
8 U.S.C. § 1326(d). A proceeding is fundamentally unfair under
§ 1326(d) only if there is “a reasonable likelihood that
the result would have been different if the error in the deportation proceeding had not occurred.” United States v. Luna, 436
F.3d 312, 317 (1st Cir. 2006) (quoting

United States v. Loaisiga, 104 F.3d 484, 487 (1st Cir. 1997)).

Herrera-Fuentes does not claim that the result of the 2007 removal proceeding would have been different if his Notice to Appear
had specified the date and time of his removal hearing. Instead, he claims that his challenge is not subject to
§ 1326(d) at
all because the alleged deficiency in his Notice to Appear is a jurisdictional defect that can always be collaterally challenged
during an illegal reentry prosecution.

Appendix B
© 2020 Thomson Reuters. No claim to original U.S. Government Works.
2

2

United States v. Herrera-Fuentes, Not Reported in Fed. Supp. (2019)
2019 DNH 125

Herrera-Fuentes bases his jurisdictional challenge on the Supreme Court's recent decision in
2105 (2018), which I turn to next.

Pereira v. Sessions, 138 S. Ct.

B. Pereira and the “Notice to Appear”
Nonpermanent residents who are subject to removal and have lived in the United States for ten consecutive years may petition
the Attorney General of the United States for a discretionary cancellation of removal.
8 U.S.C. § 1229b(b)(1). The statute
governing cancellations of removal also sets forth a “stop-time rule” which provides that continuous physical presence is
“deemed to end ... when the alien is served a notice to appear under

section 1229(a).” See

8 U.S.C. § 1229b(d)(1)(A).

Section 1229(a), in turn, requires that “written notice (in this section referred to as a ‘notice to appear’) shall be given” to
the alien.

8 U.S.C. § 1229(a)(1). That written notice must “specify[ ] ... [t]he time and place at which the proceedings will

be held.”

8 U.S.C. §§ 1229(a)(1); 1229(a)(1)(G)(i). The Court held in Pereira that a Notice to Appear that stated the hearing

would be held “on a date to be set at a time to be set,”

Pereira, 138 S. Ct. at 2112, was “not a notice to appear under

1229(a)” and therefore did not trigger the stop-time rule. See

id. at 2114 (quoting

section

8 U.S.C. § 1229b(d)(1)(A)).

The Notice to Appear that DHS served on Herrera-Fuentes contained the same time and date deficiencies as the Notice to
Appear in Pereira. Herrera-Fuentes, however, is not petitioning the Attorney General for cancellation of removal; he is moving
to dismiss his indictment. How, then, could Pereira affect this case? Defendant maintains that because his so-called “Notice to
Appear” was not actually a Notice to Appear at all (just as in Pereira), the immigration court rendered a judgment against him
on a matter that it had no jurisdiction to decide.

III. ANALYSIS
A. Pereira Defect
*3 Herrera-Fuentes argues that he is entitled to press his collateral challenge to the 2007 Removal Order without complying
§ 1326(d) because the immigration court never acquired jurisdiction to issue the order. This argument is based on the
with
premise that a Notice to Appear cannot confer jurisdiction on an immigration court unless it specifies the date and time of the
removal hearing as is required by Pereira. Because I determine that Pereira establishes a claim-processing rule rather than a
jurisdictional requirement, I reject Herrera-Fuentes’ argument.
Although courts have addressed this question in different ways, 1 I find that the Seventh Circuit's recent decision in
OrtizSantiago v. Barr, 924 F.3d 956, 963 (7th Cir. 2019), reh'g denied (July 18, 2019), neatly describes why a Pereira error is
not jurisdictional. As that court notes, the relevant statutory provision,
jurisdiction. See
courts. See
See

8 U.S.C. § 1229(a)(1)(G)(i)), makes no mention of

Ortiz-Santiago, 924 F.3d at 963. Indeed, the entire INA omits reference to the jurisdiction of the immigration

8 U.S.C. § 1101, et seq. Statutory text must provide a “clear indication” that a rule is meant to be jurisdictional.

Henderson v. Shinseki, 562 U.S. 428, 436 (2011). This statute provides no indication at all.

Nor does Pereira support the view that the defect is jurisdictional. “[T]he Supreme Court made no mention of jurisdiction in
Pereira.” See
Ortiz-Santiago, 924 F.3d at 963. “That makes sense: there is no reason why the Court needed to do so. And
had it found a lack of jurisdiction, it would not have remanded for further proceedings.” Id.
As the Seventh Circuit succinctly explained in concluding that Pereira establishes a claim-processing rule:

Appendix B
© 2020 Thomson Reuters. No claim to original U.S. Government Works.
3

3

United States v. Herrera-Fuentes, Not Reported in Fed. Supp. (2019)
2019 DNH 125

[W]e see a statute ( 8 U.S.C. § 1229(a)(1)(G)(i)) that says nothing about the agency's jurisdiction. It
simply sets out the information that must be included in a Notice to Appear. That does not mean that the
statute is unimportant or can be ignored. It simply means that an aggrieved party can forfeit any objection
she has by failing to raise it at the right time.

Id. (citation omitted).
A party wishing to challenge a claim-processing defect must timely object, see

Eberhart v. United States, 546 U.S. 12, 19,

(2005) (per curiam), or show actual prejudice. See Pereira, 138 S. Ct. at 2112. Here, Herrera-Fuentes was served with a Notice
of Hearing that gave him advance notice of the date and time of his hearing and he has not argued that he was prejudiced by the
Ortiz-Santiago, 924 F.3d at 964-65 (“This is not a case in which the Notice of Hearing never
deficient Notice to Appear. Cf.
reached him, or it came so quickly that he had trouble preparing for the hearing, or any other discernible prejudice occurred.”).
Without any actual prejudice, he cannot say that the entry of his order was “fundamentally unfair.” See

8 U.S.C. § 1326(d)(3).

*4 Because the Pereira defect at issue here did not deprive the immigration court of jurisdiction, Herrera-Fuentes is subject
to the collateral review requirements of
8 U.S.C. § 1326(d). And because he cannot show that his proceedings were
fundamentally unfair, he cannot satisfy those requirements.
B. Immigration Court Defects
Herrera-Fuentes alternatively argues that the immigration judge's failure to adequately advise him of his appellate rights rendered
his removal fundamentally unfair. 2 This argument fails.
Herrera-Fuentes did not exhaust his administrative remedies with respect to this argument and was not denied the opportunity
for judicial review. He knowingly failed to appeal his decision to the Board of Immigration Appeals. See

United States v.

DeLeon, 444 F.3d 41, 50 (1st Cir. 2006) (advising that “ordinarily, the § 1326(d) analysis should start with the first ground”).
The immigration judge advised Herrera-Fuentes of his right to appeal on three occasions, and to the question “Do you accept
my decision as final or you want to appeal it?” he responded “No, I accept.” Doc. No. 31-1 at 8-9. “[I]t is quite clear that
Congress has, particularly in the immigration laws, placed a premium on exhaustion of agency remedies,” and the failure to do
so precludes a collateral attack.

DeLeon, 444 F.3d at 50 n.7.

Moreover, Herrera-Fuentes makes no argument and provides no evidence that the result of the removal proceeding would have
been affected by appeal. In addition to showing that he exhausted available administrative remedies and that he was improperly
deprived of the opportunity for judicial review, Herrera-Fuentes must show that “the entry of the order was fundamentally
unfair.” See

8 U.S.C. § 1326(d). That means demonstrating prejudice, and such a showing requires “a reasonable likelihood

that the result would have been different if the error in the deportation proceeding had not occurred.”
United States v. SotoMateo, 799 F.3d 117, 124 (1st Cir. 2015) (quoting Luna, 436 F. 3d at 317). Herrera-Fuentes has not even suggested how the
result of his proceeding would have been different and therefore has not shown that “the entry of the order was fundamentally
unfair.” See

8 U.S.C. § 1326(d).

Appendix B
© 2020 Thomson Reuters. No claim to original U.S. Government Works.
4

4

United States v. Herrera-Fuentes, Not Reported in Fed. Supp. (2019)
2019 DNH 125

IV. CONCLUSION
Herrera-Fuentes has not demonstrated that his removal was fundamentally unfair. I deny his supplemental motions to dismiss
the indictment (Doc. Nos. 32 & 38).
SO ORDERED.
All Citations
Not Reported in Fed. Supp., 2019 WL 3718026, 2019 DNH 125

Footnotes
1

See
Banegas Gomez v. Barr, 922 F.3d 101, 112 (2d Cir. 2019) (holding that jurisdiction vests in the immigration
court when a Pereira violation is cured); Santos-Santos v. Barr, 917 F.3d 486, 491 (6th Cir. 2019) (holding that a cured
Pereira violation vests jurisdiction, and that alternatively, a notice to appear itself vests jurisdiction even if it does not
specify the date and time of the hearing);
Karingithi v. Whitaker, 913 F.3d 1158, 1159 (9th Cir. 2019) (agreeing with
Second Circuit that jurisdiction vests when a defective notice is cured). The few district court judgments that have found
a jurisdictional error have fared poorly. See, e.g.,

United States v. Zapata-Cortinas, No. SA-18-CR-00343-OLG, 2018

WL 4770868, at *1 (W.D. Tex. Oct. 2, 2018), vacated (Oct. 17, 2018), opinion superseded on reconsideration,
Supp. 3d 1006 (W.D. Tex. 2018);

2

351 F.

United States v. Rojas Osorio, No. 17-CR-00507-LHK, 2019 WL 235042, (N.D.

Cal. Jan. 16, 2019), order vacated on reconsideration sub nom.
United States v. Rojas-Osorio, 381 F. Supp. 3d 1216
(N.D. Cal. 2019).
In two sentences, Herrera-Fuentes contends that the immigration judge's failure to advise him of pro bono legal services
rendered the proceeding fundamentally unfair. He cites no caselaw supporting this proposition, however, and arguments
raised in a cursory fashion are thereby waived. See United States v. De Jesus-Viera, 655 F.3d 52, 58 n.4 (1st Cir. 2011).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B
© 2020 Thomson Reuters. No claim to original U.S. Government Works.
5

5

